HHS/OIG-Audit--"Operation Restore Trust Review of the Silver Springs Health Center, Community Mental Health Center, Miami, Florida, ((A-04-97-02138)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Review of the Silver Springs Health Center, Community Mental Health Center, Miami, Florida," (A-04-97-02138)
January 30, 1998
Complete
Text of Report is available in PDF format (1.24 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Silver Springs Health Center, a Community Mental Health Center (CMHC) located in Miami, Florida, received reimbursement
for partial hospitalization program services provided to Medicare beneficiaries. Our audit showed that the Center did not
meet the certification requirements for a CMHC, that none of the 20 patients in our sample were eligible for partial hospitalization
services and that none of the services provided to the 20 beneficiaries were medically necessary and therefore allowable
for reimbursement under Medicare coverage and reimbursement criteria. The services provided were social, recreational and
diversionary rather than psychotherapeutic in nature.
Based on the audit, Medicare payments to the Center were suspended without notice. We also recommended that the Center's
Medicare provider agreement be terminated and that the Health Care Financing Administration instruct the fiscal intermediary
to recover the $2,281,731 of Medicare payments to the Center since the effective date of its participation in the program.